J

■

“1S32
CASE No.

FILED
MAR 1 8 2020
MpremecourtS^

SUPREME COURT OF THE UNITED STATES
TONYA KNOWLES,
PETITIONER,
v.

DEPARTMENT OF VETERAN AFFAIRS,
RESPONDENT
On Petition for a Writ of Certiorari to the
United States Court of Appeals Federal Circuit
Petition for a Writ of Certiorari
Tonya Knowles
1201 Seminole Blvd
Apartment 474
Largo, Florida 33770
(239)672-5623
Pro Se

Questions Presented

1. When an Employee makes a protected
disclosure, regarding a Prohibited Personnel
Practice which falls under statue 5 USC 2302
(b)(8)-(9), against an agency official and or
staff are the subjects of the protected
disclosures allowed to initiate an investigation
regarding the complaints made against them?
2. If an employee makes a protected disclosure
against an agency official regarding how
patient information is safeguarded and the
subjects of the disclosure were investigated
and placed on a Performance Improvement
Plan, The Office of Inspector General (OIG)
verified findings of inadequate safeguards, and
the Office of Special Counsel (OSC)
acknowledged that patient information was
not safeguarded according to the Agency’s
protocol would that give an management
official motive to retaliate?

3. If a whistleblower shows that there protected
disclosures contributed to adverse actions does
the agency bear the burden of showing that it
would have acted in the same way even absent
any whistleblowing?

i

PARTIES TO THE PROCEEDING
The names of all parties appear on the caption of the
case cover page.

ii

Table of Contents
Page
Questions Presented

1

Parties to the Proceeding

n

Table of Contents

in

Table of Authorities

1V-V1

Jurisdictional Statement

vn

Constitutional &Statutory Provisions

Vll

1-13

Statement of Case

A. 2017 Suspension
B. 2017 Information Security Violation-Gina
Rhodes
C. 2017 Information Security Violation-Devona
Hollingsworth
D. 2018 Suspension
E. Proposed removal
Reason for Granting the Writ

iii

13-33

Table of Authorities
Carr v. Social Security Administration,
185 F. 3d 1313, 1318 (Fed. Cir. 1999)

17

Chambers v. Department of the Interior.
116 M.S.P.R. 17, 69 (2011)................

22

Lachance v. White.
174 F. 3d 1378, 1380 (Fed. Cir. 1999), cert
denied 528 U.S.1153 (2000)................................

14

Lachance v. White.
174 F. 3d 1378, 1380 (Fed. Cir. 2010)

14

Mattil v. Department of State.
118 M.S.P.R. 662, 14 (2012)

15

Miller v. Department of Justice.
842 F. 3d 1257 (Fed. Cir. 2016)

24

Miller v. Department of Justice.
842 F. 3d 1262 (Fed. Cir. 2016)

24

Phillips v. Department of Transportation.
113 M.S.P.R. 73, 23 (2010)............ .

22

Rubendall v. Department of Health and Human
Services.
101 M.S.P.R. 59, 11 (2006)

16

Russell v. Department of Justice.
76 M.S.P.R. 317 (1997).........

18

IV

Schnell v. Department of the Army.
114 M.S.P.R. 83, 18(2010)......

14

Schnell v. Department of the Army.
114 M.S.P.R. 83,21 (2010).....

16

Sullivan v. Den’t of the Naw.
720 F. 2d 1266, 1278 (Fed. Cir. 1983) (Nies., J.,
concurring)
18
Szwak v, Earwood.
592 F. 3d 664, 668 ( Fed Cir.
2009)......................................

17

Whitmore v. Department of Labor.
680 F. 3d 1365 (Fed. Cir. 2012)

17

Whitmore v. Department of Labor.
680 F. 3d 1370-71 (Fed. Cir. 2012)
22

Whitmore v. Department of Labor.
680 F. 3d 1373 (Fed. Cir. 2012)

23

STATUES
14

5 U.S.C. 1221(e)
5 U.S.C.1221(e)(2)

17, 24

5 U.S.C. 2302 (a)(2)(A)

15

5 U.S.C. 2302 (b)(8)

vii,.3,4,5,8,12,14,25

5 U.S.C. 2302 (b)(9)

vii, 14.25
v

5 U.S.C. 7701 (c)(2)(B)

18-19

5 U.S.C. Chapter 43

15

5 U.S.C. Chapter 75

15

28 U.S.C. 1254(1)

Vll

38 U.S.C. 713

30

38 U.S.C. 714

10,30

38 U.S.C 731

30

38 U.S.C. 732

31

38 U.S.C. 733

31
31-32

38 U.S.C. 323(f)(2)
REGULATIONS
5 C.F.R. 1201.4(q)

14

5 C.F.R. 1209.4(d)

14

vi

Decision Below
The opinion of the United States Court of Appeals is
reported as Non-Precedential.
Jurisdictional Statement
On January 10, 2020 the United States Court
of Appeals issued a decision denying my request for
corrective action under the Whistleblower Protection
Act. The Supreme Court of the United States has
jurisdiction to review my case in accordance with 28
U.S.C 1254 (1) which states that Cases in the Court
of Appeals may be reviewed by the Supreme Court by
Writ of Certiorari granted upon petition of any party
to any civil and or criminal case, before and after
rendition of judgement or decree.
Constitutional & Statutory Provisions
The First Amendment to the United States
Constitution provides, in pertinent part, that
Congress shall make no law... Abridging the freedom
of speech. The U.S. Constitution amend I. Section 1 of
the fourteenth amendment to the United States
Constitution provides in pertinent part that [n]o
State Shall... deprive any person of life, liberty, or
property, without due process of the law; nor deny to
any person within its jurisdiction the equal protection
of the laws. ’’The Whistleblower Protection Act of
1989, 5 U.S.C. 2302 (b)(8)-(9), Pub. L. 101-12 as
amended, is a United States Federal Law that
protects federal whistleblowers who work for the
government and report the possible existence of an
vii

activity constituting a violation of any law, rule, or
regulation, gross mismanagement, gross waste of
funds, abuse of authority, or substantial and specific
danger to public health and or safety

viii

Statement of Facts
A. 2017 Suspension
May 23, 2016,1 disclosed to Ms. Rosa Sly
(Release of Information, Supervisor) in person that
documents were missing (Appxl). June 06, 2016,1
disclosed to Rosa Sly (Release of Information,
Supervisor) that Ms. Gwendolyn Kemp (Medical
Record Technician) called me a little girl and
informed me that I would be fired (Appx2-3). June
18, 2016,1 reported to Ms. Patricia Bowman (Chief,
HIMS) and Ms. Rosa Sly (Release of Information
Supervisor) that I had concerns about what Mr.
Willie Hubbard (Medical Record Technician) and Ms.
Loria Royer (Lead, Medical Record Technician)
informed me about my customer service and job
performance (Appx4-5). July 06, 2016,1 reported that
Ms. Gwendolyn Kemp (Medical Record Technician)
physically hit me in the face with documents
(Appx6). July 18, 2016,1 emailed Ms. Rosa Sly
(Release of Information, Supervisor) and I requested
a group change because I felt as if I was in a hostile
work environment (Appx7).
July 26, 2016,1 emailed Ms. Rosa Sly (Release
of Information, Supervisor) and I informed her about
my concerns regarding how patient information was
safeguarded within the release of information
department and that Mr. Willie Hubbard (Medical
Record Technician) informed me that I cannot use
the restroom (Appx8). July 27, 2016,1 reported to
Ms. Rene Wilson (Chief, Health Administration
Service) that Mr. Willie Hubbard (Medical Record

1

Technician) made my work environment hostile and
the behaviors he displayed towards me was
inappropriate (Appx9-ll). August 05, 2016,1
reported to Mr. Sidney Odom’s (EEO Specialist) and
Ms. Rosa Sly (Release of Information Supervisor)
that the release of information department was
hostile and that my body was negatively reacting to
the stress within the department (Appxl2-14).
August 10, 2016,1 had a meeting with Ms.
Rosa Sly (Release of Information Supervisor) and Ms.
Donna Griffin Hall (Business Office Service, Chief)
regarding my concerns about the release of
information department and my inability to
safeguard patient information (Appxl5). August 18,
2016,1 emailed Ms. Rosa Sly (Release of Information,
Supervisor) and requested a key to safeguard
documents (Appxl6). August 31, 2016 Ms. Rosa Sly
(Release of Information Supervisor) requested
disciplinary action from Human Resources (Appxl7).
October 12, 2016,1 reported to Ms. Rosa Sly (Release
of Information, Supervisor) that teamwork within
the release of information department is nonexistent
and Ms. Loria Royer (Lead, Medical Record
Technician) became hypercritical of my customer
service (Appxl8).
November 02, 2016,1 informed Ms. Rosa Sly
(Release of Information, Supervisor) that Ms. Loria
Royer’s (Medical Record Technician, Lead) behavior
was inappropriate when she slammed Ms. Rosa Sly’s
door (Appxl9). December 29, 2016,1 reported to
Donna Griffin Hall (Business Office Service, Chief)
that the release of information department is hostile
(Appx20). December 30, 2016,1 received a proposed

2

suspension from Ms. Donna Griffin Hall and I was
charged with a failure to safeguard confidential
information, negligence causing waste and delay and
disruptive behavior (Appx21-23). January 05, 2017,1
met with Ms. Kristina Brown (Deputy Director)
regarding my proposed suspension dated December
30, 2016 and I disclosed to her in person and through
my written statement that patient information was
not safeguarded with key, there was no tracking
system in place to account for first and third party
authorization forms, and the release of information
department was hostile (Appx24-33). February 01,
2017,1 reported to Ms. Devona Hollingsworth
(Assistant Chief, HIMS) that Mr. Ronald Perez
(Medical Record Technician) released patient
information without a proper authorization form
signed (Appx34).
February 02, 2017,1 disclosed to Ms. Rosa Sly
(Release of Information, Supervisor) via email that
Ms. Loria Royer (Medical Record Technician, Lead)
behavior was inappropriate when she screamed at
me in front of patients (Appx35). February 02, 2017,
I disclosed to Ms. Devona Hollingsworth (HIM,
Assistant Chief) that she went into a meeting with
police officials with me without me having proper
representation (Appx36). February 03, 2017,1 .
disclosed to Ms. Kristina Brown (Deputy Director)
via email that Management was fraternizing with
employees to make me look like a problem and I
requested that the police monitor the release of
information department (Appx37). March 10, 2017 a
decision was made to suspend me from April 12,
2017-April 18, 2017 (Appx38). According to 5 USC
2302(b)(8) it is illegal to take or fail to take, or
threaten to take, a personnel action with respect to
3

any employee or applicant for employment because of
any disclosure of information by an employee or
applicant which the employee or applicant
reasonably believes evidences any violation of any
law, rule or regulation and abuse of authority.
B. 2017 Information Security Violation-Gina
Rhodes
January 05, 2017 was my scheduled meeting
with Ms. Kristina Brown (Deputy Director) regarding
my proposed suspension dated December 30, 2016
where I was charged with a failure to safeguard
confidential information, negligence causing waste
and delay and disruptive behavior. I disclosed to Ms.
Kristina Brown (Deputy Director) during my
scheduled meeting the lack of safeguards, the need
for a tracking system and the hostile work
environment in the release of information
department (Appx24-33) and on January 17, 2017 I
received a ISO Violation from Ms. Gina Rhodes
(Information Security Officer) (Appx39-40).
According to 5 US C 2302(b)(8) it is illegal to
take or fail to take, or threaten to take, a personnel
action with respect to any employee or applicant for
employment because of any disclosure of information
by an employee or applicant which the employee or
applicant reasonably believes evidences any
violation of any law, rule or regulation and abuse of
authority.

4

C. 2017 information security violation-Devona
Hollingsworth
January 20, 2017,1 disclosed to Ms. Rosa Sly
(Release of Information, Supervisor) that Ms.
Gwendolyn Kemp (Medical Record Technician) used
profanity during meetings (Appx41). February 01,
2017,1 reported to Ms. Devona Hollingsworth that
Mr. Ronald Perez (Medical Record Technician)
released patient information without a proper
authorization form signed (Appx34). February 02,
2017,1 disclosed to Ms. Rosa Sly (Release Of
Information, Supervisor) via email that Ms. Loria
Royer (Medical Record Technician, Lead) behavior
was inappropriate when she screamed at me in front
of patients (Appx35).
February 02, 2017,1 disclosed to Ms. Devona
Hollingsworth (HIM, Assistant Chief) that she went
into a meeting with police officials with me without
proper representation (Appx36). February 03, 2017,1
disclosed to Ms. Kristina Brown (Deputy Director)
via email that Management was fraternizing with
employees to make me look like a problem and I
requested that the police monitor the release of
information department (Appx37). February 07,
2017,1 received a ISO Violation from Ms. Devona
Hollingsworth (HIM, Assistant Chief) (Appx42-43).
According to 5 USC 2302(b)(8) it is illegal to
take or fail to take, or threaten to take, a personnel
action with respect to any employee or applicant for
employment because of any disclosure of information
by an employee or applicant which the employee or
applicant reasonably believes evidences any

5

violation of any law, rule or regulation and abuse of
authority.
D. 2018 Suspension
February 09, 2017,1 reported to Ms. Devona
Hollingsworth (Assistant Chief, HIMS) and Dr.
Roma Palcan (Psychologist) that my computer access
was taken away in its entirety and I cannot be
productive without work assignments (Appx44)
February 20, 2017,1 informed Mr. Clark Hazley that
I believed that I was placed with Dr. Roma Palcan
(Psychologist) to be assessed (Appx45). March 06,
2017 Ms. Devona Hollingsworth (Assistant Chief,
HIMS) sent an inappropriate email to staff regarding
a grievance with Ms. Donna Griffin Hall (Chief,
Business Office Service) and she discussed her
concerns about her job title and pay via email
(Appx46) and I informed Ms. Rosa Sly (Release of
Information Supervisor) that the email that I was
attached to was inappropriate and the Business
Office Service staff in its entirety did not need to be
attached to matters regarding Ms. Devona
Hollingsworth (Assistant Chief, HIMS) grievance.
April 19, 2017,1 disclosed to Ms. Suzanne
KLinker (Director), Ms. Donna Griffin Hall (Chief,
Business Office Service) and Ms. Kristina Brown
(Deputy Director) that Mr. Robert Larson (Assistant
Chief, Social Work) fabricated a fact-finding
investigation when he stated that Ms. Donna Griffin
Hall hit me on the top of my head with documents
(Appx47).

6

June 29, 2017,1 disclosed to Ms. Laura
Fowkes (Privacy Officer), Ms. Donna Griffin Hall
(Chief, Business Office Service) and Ms. Rosa Sly
(Release of Information Supervisor) that Mr. Robert
Larson (Assistant Chief, Social Work), Ms. Roma
Palcan (Psychologist) and Ms. Kathy Green (Nurse)
completed a multi-disciplinary
psychiatric/psychological assessment without
knowledge or consent (Appx48). July 03, 2017,1
reported to Ms. Laura Fowkes (Privacy Officer), Ms.
Rosa Sly (Release of Information, Supervisor), and
Ms. Donna Griffin Hall (Chief, Business Office
Service) that Mr. Robert Larson Breached HIPAA
Law and Privacy Rule when he documented that I
was “disorganized” and “disjointed”. (Appx49-50).
July 31, 2017,1 provided Ms. Rosa Sly (Release of
Information Supervisor) Ms. Donna Griffin Hall
(Chief Business Office Service), and Ms. Kristina
Brown (Deputy Director) with a notice of
Harassment (Appx51-52). August 10, 2017,1
disclosed to Ms. Suzanne Klinker (Director) that I
did not feel safe speaking to management officials
alone (Appx53). August 14, 2017,1 disclosed that my
safety is in imminent danger around Mr. Gregory
Burrison (Appx54).
August 14, 2017,1 disclosed to Ms. Kristina
Brown (Deputy Director) that EEO Complaints are
frowned upon and the behaviors displayed by
Management Officials are unethical (Appx55).
August 15, 2017,1 informed Ms. Donna Griffin Hall
(Business Office Service, Chief) that I was having
surgery and I was still faced with Harassment
(Appx56). October 02, 2017,1 reported to Detective
Lange that Mr. Gregory Burrison (Medical Record
Technician) harassed me; Mr. Gregory Burrison
7

(Medical Record Technician) bumped into me and
then called the police on me (Appx57-58). October 23,
2017,1 disclosed to Ms. Rosa Sly (Release of
Information, Supervisor) via email that Ms. Loria
Royer (Medical Record Technician) altered the time
sequence when she copied and paste (Appx59-60).
October 24, 2017, Ms. Rosa Sly (Release of
Information, Supervisor) requested disciplinary
action from Human Resources (Appx61).
January 17, 2018,1 disclosed that Osha Law
was being violated and Ms. Gwendolyn Kemp
(Medical Record Technician) harassed me when I
requested to use the restroom (Appx62). January 24,
2018,1 received a verbal warning via email from Ms.
Rosa Sly (Supervisor, Release of Information)
(Appx63). March 26, 2018,1 received a proposed
suspension from Ms. Donna Griffin Hall (Chief,
Business Office Service) (Appx64-66). April 06, 2018,
I met with Mr. Jonathan Benoit (Associate Director)
regarding my proposed suspension dated March 26,
2018; I disclosed to Mr. Jonathan Benoit (Associate
Director) that Ms. Rosa Sly (Supervisor, Release of
Information) did not conduct a fact-finding
investigation as she suggested, Ms. Loria Royer
(Lead, Medical Record Technician) was copying and
pasting emails, and management is reprising against
me due to my EEO status (Appx67-68). April 12,
2018,1 reported to Ms. Suzanne Klinker (Director)
that Mr. Ronald Plemmons (Chief of Human
Resources) refused to provide me with my
employment file and it appears that steps are being
taken to keep my record hidden (Appx 69-70). April
09, 2018,1 requested that Ms. Suzanne Klinker
(Director) provide me with oversight due to my

8

allegations that Ms. Rosa Sly (Release of Information
Supervisor) violated my Weingarten rights (Appx71).
April 17, 2018,1 reported to Ms. Suzanne
Klinker (Director) and Ms. Tathiska Thomas
(President AFGE) that management is demanding
that I take on a job responsibility that I was not
hired to complete (Appx72-73). April 20, 2018 Mr.
Jonathan Benoit (Associate Director) made a
determination to suspend me and the dates of my
suspension were May 06, 2018- May 19, 2018
(Appx74). According to 5 USC 2302(b)(8) it is illegal
to take or fail to take, or threaten to take, a
personnel action with respect to any employee or
applicant for employment because of any disclosure
of information by an employee or applicant which the
employee or applicant reasonably believes evidences
any violation of any law, rule or regulation and abuse
of authority.
E. Proposed Removal
March 30, 2018,1 reported to Mr. Marcus
Johnson (Human Resources Specialist) that my
Weingarten rights were violated, and a fact-finding
investigation did not occur as Ms. Rosa Sly
(Supervisor, Release of Information) suggested
(Appx75). April 18, 2018,1 reported to Ms. Laura
Fowkes (Privacy Officer) that I had a scheduled
meeting on April 19, 2018 in which I was reporting
fraud, waste and abuse that occurred by Ms. Rosa
Sly (Release of Information Supervisor) and my
computer access is deactivated (Appx76). April 19,
2018,1 reported to Mr. Jack Roberts, Federal Labor

9

Relations Authority Attorney, that my Weingarten
rights were violated. (Appx77-80).
May 21, 2018,1 reported that Ms. Donna
Griffin Hall (Chief, Business Office Service) abused
her authority to Ms. Suzanne Klinker (Director) and
Ms. Tathiska Thomas (AFGE President) via email
when she conducted a fact-finding investigation
regarding Patient Health Information (PHI) &
Personal Identifiable Information (Pll)Violations
(Appx81-82). May 21, 2018,1 disclosed to Suzanne
Klinker (Director), Tathiska Thomas (AFGE
President), Donna Griffin Hall (Chief, Business
Office Service) and Rosa Sly (Release of information,
Supervisor) via email that Privacy Officers nor
Human Resources redacted veteran information
prior to them providing me with an evidence file
(Appx81).
May 22, 2018,1 disclosed to Ms. Donna Griffin
Hall (Chief, Business Office Service) and Ms.
Tathiskh Thomas (AFGE President) that I was
sitting in the education department staring at walls
(Appx83). May 22, 2018,1 disclosed to Ms. Donna
Griffin Hall (Chief, Business Office Service) and Ms.
Tathiska Thomas (AFGE President) that Ms. Donna
Griffin Hall is trying to have me sign an illegal
document and take away my rights to file a grievance
(Appx84).
May 30, 2018, Ms. Rosa Sly requested
corrective action from the Privacy Office and Human
Resources (Appx85). June 29, 2018, Ms. Donna
Griffin Hall (Chief, Business Office Service) provided •
me with a proposed removal citing 38 USC 714

10

(Appx86-89). July 10, 2018,1 reported to Ms.
Suzanne Klinker (Director) and Ms. Tathiska
Thomas (AFGE President) that my Proposed removal
was illegal, and it is based on Prohibited Personnel
Practices (Appx90-91). July 10, 2018,1 reported to
Suzanne Klinker and Tathiska Thomas that my
FOIA request was denied with a statement that says
it will cause an embarrassment to the agency
(Appx91). August 17, 2018,1 disclosed to Ms. Rosa
Sly (Supervisor, Release of information), Ms.
Suzanne Klinker (Director) and Ms. Karen Mulcahy
(Attorney) that the unwelcome attention of Ms.
Donna Griffin Hall is Harassment (Appx92).
November 09, 2018,1 reported that Ms. Rosa Sly’s
behavior is inappropriate. Ms. Rosa Sly contacted
Fire & Safety to evaluate a table, and when she
discussed safeguards, policies and procedures and
follow ups her demeanor was not welcoming
(Appx93).
November 28, 2018,1 disclosed to Rosa Sly
(Release of Information Supervisor) that I was
disabled from VA network illegally (Appx94).
February 08, 2019 the Agency Attorney, Ms. Tanya
“TB” Burton, called me via work phone and
aggressively demanded that I settle my case
(Appx95). July 19, 2019,1 informed Ms. Rosa Sly
(Release of Information, Supervisor) that Ms.
Angellette Boyd (Medical Records Technician)
brought in a woodwick diffuser into the Release of
Information/ Medical Records Department and I
requested that she reframe from using the scented
Fragrance. Appx96 & Appx97. August 06, 2019,1
informed Ms. Rosa Sly (Release of Information,
Supervisor) that Ms. Angellette (Medical Records
Technician) is wearing a perfume fragrance and I
11

have to step away from my work area due to me
having an allergic reaction. Ms. Rosa Sly (Release of
Information, Supervisor) was also informed that Ms.
Angellette (Medical Record Technician) is a CNA by
trade and she is aware that in patient care areas
that diffusers and or perfumes are not acceptable and
she continues to wear a fragrance that is impacting
my health. Appx96. August 08, 2019,1 informed Mr.
Paul Russo (Facility Director) that my health was
impacted due to Ms. Angellette (Medical Records
Technician) bringing into the Release of
information/Medical Records department a woodwick
diffuser and perfume fragrance. Appx98. August 13,
2019,1 asked Ms. Marcia Powell (Chief, Health
Information Management) via email to reframe from
wearing perfume/fragrance due to my allergies and
recent sensitivity to perfume. Appx99.
August 13, 2019,1 informed Ms. Rosa Sly (
Release of Information, Supervisor) that according to
the Memorandum signed by Ms. Donna Griffin Hall
(Business Office Service, Chief) Ms. Rosa Sly (
Release of Information, Supervisor) is to safeguard
my documents and not Mr. Dana Askew (Medical
Records, Supervisor). AppxlOO. Furthermore, I also
Informed Ms. Rosa Sly (Release of Information,
Supervisor) that I did not need special attention
from, Mr. Dana Askew, a male supervisor who is
assigned to the Medical Records Department.
AppxlOO. August 20, 2019,1 informed Ms. Rosa Sly (
Release of Information, Supervisor) via email that I
was uncomfortable speaking with Ms. Angellette
Boyd due to what I have alleged about Ms.
Angellette’s inappropriate behavior and I asked Ms.
Rosa Sly (Release of Information, Supervisor) if Ms.
Angellette can give consideration, and minimize
12

contact with me, because I have alleged that Ms.
Angellette was attempting to impact my health.
AppxlOl. August 24, 2019,1 informed Ms. Rosa Sly (
Release of Information, Supervisor) that when Ms.
Rochelle Hollenquest-Alston (Assistant Chief, HIM)
allowed Mr. Dana Askew (Medical Records,
Supervisor) to safeguard my documents in a file
cabinet in the medical records department it went
against May 22, 2018 Memorandum signed by Ms.
Donna Griffin Hall (Chief, Business Office Service)
that specifically states that my supervisor, Ms. Rosa
Sly, is to safeguard my uncompleted work
assignment(s) at the end of the day. Appxl02.
Furthermore, when Mr. Bob Werle (Medical Record
Technician) and Ms. Marilyn Jackson (Lead, Medical
Record Technician) safeguarded, locked and secured
my documents in the medical records file cabinet it
went against May 22, 2018 Memorandum signed by
Ms. Donna Griffin Hall (Chief, Business Office
Service) which states that Ms. Rosa Sly (Release of
Information, Supervisor) is assigned to safeguard my
documents. Appxl03-104.
According to 5 USC 2302(b)(8) it is illegal to take
or fail to take, or threaten to take, a personnel action
with respect to any employee or applicant for
employment because of any disclosure of information
by an employee or applicant which the employee or
applicant reasonably believes evidences any violation
of any law, rule, or regulation and abuse of authority.

13

Reason for Granting the Writ
Prohibited Personnel Practices in the federal
government are employment related activities that
are banned in the federal workforce because they
violate the merit system through some form of
employment discrimination, retaliation, improper
hiring practices, or failure to adhere to laws, rules, or
regulations that directly concern the merit system
principle. I made protected disclosures about how the
release of information department was not
safeguarding, tracking and securing documents and I
became the subject of ongoing repeated reprisal and
egregious harassment.
In a synopsis, the harassment that I was subjected
to for making a disclosure was being physically hit
with documents, being a suspect in police
investigations on more than one occasion after I
reported inappropriate behavior, being involved iri an
illegal psychological/psychiatric evaluation that was
done without knowledge and or consent, I was
poisoned with perfume and other fragrances to the
point where I had to stuff my nose with Kleenex so I
would not smell the fragrance, I am stalked online
and followed around Bay Pines CW Bill Young
Campus, I am currently the target of inappropriate
sexual innuendos, I am only assigned to open, sort,
and stamp mail for eight hours a day, and I am
disabled from VA Health Care System and I am a
current federal employee.
In reviewing the merits of an IRA appeal, the
Administrative Judge must examine whether I

14

proved by preponderant evidence1 the following four
elements: (1) the management official has the
authority to take, recommend, or approve any
personnel action. (2) the aggrieved employee made a
disclosure under 5 U.S.C. 2302(b)(8) or engaged in
protected activity under 5 U.S.C. 2302(b)(9); (3) the
management official use his authority to take, or
refuse to take, a personnel action against the
aggrieved employee; and (4) the protected disclosure
was a contributing factor in the agency’s personnel
action in the absence of the disclosures. Lachance v.
White, 174 F. 3d 1378, 1380 (Fed. Cir. 2010);
Lachance v. White, 174 F. 3d 1378, 1380 (Fed. Cir.
1999), cert, denied 528 U.S. 1153 (2000). If so,
corrective action shall be ordered unless the agency
established by clear and convincing evidence2 that it
would have taken the same personnel action in the
absence of the disclosures. Schnell v. Department of
the Army, 114 M.S.P.R. 83, f 18 (2010); see 5 U.S.C.
§ 1221(e).
I provided the Merit System Protection Board
Administrative Judge with fifty-one disclosures due
to his Order to show cause (Appxl05-155). In
response to his Order to Show Cause Administrative
Judge Morris found that I asserted inter alia, on or
about July 26, 2016 protected disclosures to my

i

Preponderant of the Evidence is that amount of relevant evidence which
a reasonable person, considering the record as a whole, would accept as
sufficient to find that a contested fact is more like true than untrue. 5
C.F.R. 1201.4(q)
2 Clear and convincing evidence is that measure or degree of proof that
produces in the mind of the trier of fact a firm belief as to the allegations
sought to be established. 5 C.F.R. 1209.4(d)

15

management chain to the effect that personal
identifiable information (PII) was not safeguarded in
violation of, inter alia, the Privacy Act and the
Health Insurance Portability and Accountability Act
of 1996(HIPAA). By Order Dated February 14, 2019,
the Merit System Protection Board Administrative
Judge found that I had non frivolously alleged that a
disinterested observer with knowledge of the
essential facts known to and readily ascertainable
could reasonably conclude that the agency’s actions
evidenced wrongdoing as defined by the WPA. The
Merit System Protection Board Administrative Judge
further found that the disclosure was raised before
OSC (Appxl56-163).
The agency has not disputed that I made a
protected disclosure. A “personnel action” is defined
as follows: (i) an appointment; (ii) a promotion; (iii)
an action under 5 U.S.C. Chapter 75 or other
disciplinary or other corrective action; (iv) a detail,
transfer, or reassignment; (v) a reinstatement; (vi) a
restoration; (vii) a reemployment; (viii) a
performance evaluation under 5 U.S.C. Chapter 43;
(ix) a decision concerning pay, benefits, or awards, or
concerning education or training if the education or
training may reasonably be expected to lead to an
appointment, promotion, performance evaluation, or
other personnel action; (x) a decision to order
psychiatric testing or examination; (xi) the
implementation or enforcement of any nondisclosure
policy, form, or agreement and (xii) any other
significant change in duties, responsibilities, or
working conditions. 5 U.S.C. 2302(a)(2)(A); Mattil v.
Department of State, 118 M.S.P.R. 662, 14 (2012).
Here it is undisputed that the agency twice
suspended me (in 2017 and 2018), issued two
16

information security violation memoranda (in
January and February 2017), and proposed my
removal (in June 2018). The record reflects that the
Merit System Protection Board Administrative Judge
found that these actions all qualify as “personnel
actions” under the WPA (Appxl57-160).
I may demonstrate that a disclosure was a
contributing factor in a personnel action through
circumstantial evidence, such as evidence that the
official taking the personnel action knew of the
disclosure, and that the personnel action occurred
within a period of time such that a reasonable person
could conclude that the disclosure was a contributing
factor in the personnel action, also known as the
“knowledge/timing test.” Once the knowledge/timing
test has been met, the MSPB Administrative Judge
must find that I have established that my protected
whistleblowing activity was a contributing factor in
the personnel action at issue, even if, after a
complete analysis of all of the evidence, a reasonable
fact finder could not conclude that the appellant’s
whistleblowing was a contributing factor in the
personnel action. See, e.g. Schnell v. Department of
the Army, 114 M.S.P.R. 83, 21 (2010). To satisfy the
“knowledge/timing test, I need only demonstrate that
the fact of, not necessarily the content of, the
protected disclosure was one of the factors that
tended to affect the personnel action in any way. See
Rubendall v. Department of Health and Human
Services, 101 M.S.P.R. 59, 11 (2006). The record
reflects that the Merit System Protection Board
Administrative Judge Jeffrey S. Morris has stated
that all of the agency’s actions occurred within
approximately one year of my protected disclosures

17

and I met the burden of proving the contributing
factor. (Appxl60-161)
Standard of Review

The questions posed by this issue is a mixed case of
law and fact. I have not argued that the Merit
System Protection Board Administrative Judge failed
to get the facts right, just that they misapplied the
facts of the law. As such, I am requesting that this
Court review this case de novo. Szwak v. Earwood,
592 F. 3d 664, 668 (Fed Cir. 2009).
Argument
The agency has not shown by clear and
convincing evidence that it would have taken the
personnel actions absent my protected disclosures. If
the agency does not dispute that whistleblowing
contributed to the agency decision to take adverse
personnel actions against an employee, the agency
must prove it would have taken the same action
absent the whistleblowing. See 5 U.S.C. 1221 (e)(2),
In determining whether an agency has met its
burden of clear and convincing evidence that it would
have taken the same personnel action in the absence
of whistleblowing the following factors (the “Carr
Factors”) should be considered (1) the strength of the
agency’s evidence in support of its personnel action;
(2) the existence and strength of any motive to
retaliate on the part of the agency officials who were
involved in the decision; and (3) any evidence that
the agency takes similar actions against employees
who are not whistleblowers but who are otherwise
similarly situated. See Whitmore, 680 F. 3d at 1365;

18

Carr v. Social Security Administration, 185 F. 3d
1313, 1318 (Fed. Cir. 1999).
In respect to the first Carr Factor, The Merit
System Protection Board Administrative Judge erred
in finding that the strength of the agency’s evidence
supports its personnel action. I made protected
disclosures in which I alleged that the release of
information department was not safeguarding and
securing patient information according to protocol,
there was no tracking system to account for first and
third-party authorization forms, and the release of
information department was hostile. After, I made a
disclosure I was subjected to ongoing egregious
reprisal by my co-workers and my direct chain of
command to include Ms. Rosa Sly (Release of
Information Supervisor), Ms. Donna Griffin Hall
(Chief, Business Office Service) and Ms. Kristina
Brown (Deputy Director).
The information that I disclosed was what I
reasonably believed evidenced a violation of a law,
rule, and regulation and once I made a protected
disclosure I was investigated, although my co­
workers, and management were all subject to
investigation due to my protected disclosures. See
Russell v. Department of Justice, 76 M.S.P.R. 317
(1997) (investigations of the employee were initiated
by the agency because of allegations made by two
subjects of the protected disclosures).
Furthermore, the individuals that I made
protected disclosures against provided me with
adverse personnel actions and requested ongoing
investigations. The board has no discretion to affirm

19

a penalty tainted in illegal reprisal, even if the
agency’s penalty might otherwise have been
reasonable. See 5 U.S.C. 7701(c)(2)(B); Sullivan v.
Dep’t of the Navy, 720 F. 2d 1266, 1278 (Fed. Cir.
1983) (Nies., J., concurring). In an adverse action
proceeding the merits cannot be the determinative
factor that there was no reprisal. A meritorious
adverse action must be set aside where there is
reprisal. If the agency fails to prove that it would
have taken the same action absent whistleblowing,
the Board must set aside the agency’s penalty
decision and order corrective action. See 5 USC 7701
(c)(2)(B).
In regard to the second Carr factor the
Strength of the agency’s motive to retaliate; The
Business Office Service leadership team, including
Ms. Donna Griffin Hall (Chief, Business Office
Service) and Ms. Rosa Sly (Supervisor, Release of
information) were placed on a Performance
Improvement Plan (PIP) dated March 14, 2016
(Appxl64-175). The Performance Improvement Plan
focused on areas that the Business Office Service
leadership team was underperforming in as follows:
For Fiscal Year 2015 the performance improvement
plan focused on inadequate staffing, equipment
failures, stress and morale amongst staff and reports
of a hostile work environment. Fiscal Year 2016
focused on Vacant FTEE/Demand Greater than
resources, equipment failures, missing request,
improving hiring retention, and stress and morale
amongst staff to include reports of hostile work
environment. The Performance Improvement Plan
also included recommendations as follows: Review
and assess ROI practices and procedures, consistent

20

monitoring and tracking and reconciliation, secure
request, and use an electronic tracking system.
The Office of Inspector General (OIG)
conducted a health care inspection into the delays in
processing Release of Information Requests at Bay
Pines VA Health Care System Report No. 16-0286471 in May 2016 (Appxl76-179). The OIG
substantiated that under the Business Office Service
Chiefs direction, ROI Staff did not comply with VHA
prioritization policy during the first quarter of FY
2015. During their inspection the OIG also found
that the ROI Section workplace culture contributed
to the challenges in resolving backlog and sustaining
effective processes. These long-standing workplace
culture challenges included medical record
technicians and manager vacancies and turnover,
interpersonal conflicts, lack of trust amongst staff
and managers, and performance issues. The OIG
recommended that the System Director ensure the:
strengthening of procedures for timely processing of
ROI requests, capturing and trending of complaints
related to ROI requests, evaluating of personnel
issues negatively impacting staff retention and
hiring in the ROI section and taking appropriate
action, monitoring of ROI staff productivity, and
tracking and monitoring ROI request processing.
The OIG also substantiated that facility
managers were unable to locate 547 hard copy ROI
requests logged into ROI Plus from approximately
January 2014 through June 2016. The total 547
missing authorizations affected 513 unique patients
and resulted in 483 credit monitoring letters and 30
next of kin letters. The missing request led Privacy

21

Officers to submit 10 Violation Memorandums to
PSETS. From March 2015 through February 2016,
the Privacy Officers Submitted 9 PSETS memoranda
that accounted for 260 Missing authorizations. The
OIG also found that staff members were not securing
documents according to protocol. In February 2016,
managers found a “stack” of requests dating back to
the prior year in an employee’s desk. Additionally, In
May 2016 the Business Office Service (BOS) Chief
learned that the supervisors tracking was “sporadic
and inconsistent”. In May 2017, the Business Office
Service (BOS) Chief learned that the facility ROI
Supervisor did not arrange ongoing quality audits at
the termination of the DMS staff auditors’ detail
almost a year prior (June 2016).
In addition, I filed a formal complaint with the
Office of Special Counsel (OSC) disclosure unit in
June 2017. The complaint was filed because the
release of information department was not
safeguarding, securing and tracking documents
according to protocol. The OSC Complaint Number is
DI-17-4282 and in that complaint I was informed on
September 29, 2017 that Bay Pines VA Healthcare
System has begun safeguarding documents
containing PHI/PII in compliance with agency
regulations (Appxl80-181). My effective hire date in
the release of information department was April 06,
2016 (Appxl82). The Office of Special Counsel (OSC)
confirmed that the agency is following protocol one
year and five months after my effective hire date in
the release of information department.
Also, On August 24, 2019 I disclosed via email
to Ms. Rosa Sly that the medical records Supervisor,

22

Mr. Dana Askew, was safeguarding my documents
and his staff, and it went against the Memorandum
which states that the Supervisor, Ms. Rosa Sly is to
safeguard my documents. Appxl00-Appxl02. April
06, 2016 was my effective hire date in the release of
information department and on August 24, 2019 I
made a disclosure to my immediate supervisor
regarding safeguards. Three years, four months and
two weeks after my effective hire date I still had
complaints about how patient information was
safeguarded.
I find that the Administrative Judge erred in
taking an overly restrictive view of the second Carr
factor. Although Ms. Rosa Sly (Release of
Information Supervisor), Ms. Donna Griffin Hall
(Chief-Business Office), Ms. Gina Rhodes
(Information Security Officer), Ms. Devona
Hollingsworth (Assistant Chief HIMS), Mr. Jonathan
Benoit (Associate Director) and Ms. Kristina Brown
(Deputy Director) were not directly implicated or
harmed by the disclosures, my criticisms reflected on
both of their capacities as management officials and
employees, which is sufficient to establish a
substantial retaliatory motive.
See Whitmore, 680 F.3d at 1370-71 (the
appellant’s criticisms cast the agency, and by
implication all of the responsible officials, in a highly
critical light by calling into question the propriety
and honesty of their official conduct); Chambers v.
Department of the Interior, 116 M.S.P.R, 17, Tf 69
(2011) (finding motive to retaliate because the
appellant’s disclosures reflected on the responsible
agency officials as representatives of the general

23

institutional interests of the agency); Phillips v.
Department of Transportation, 113 M.S.P.R. 73, ^ 23
(2010) (finding that comments generally critical of
the agency’s leadership would reflect poorly on
officials responsible for monitoring the performance
of the field staff and making sure that agency
regulations are carried out correctly and
consistently). Accordingly, I conclude that the second
Carr factor weighs significantly against a finding
that the agency would have taken personnel actions
against me in the absence of my whistleblowing
activity.
In respect to the third Carr factor, I contended
that the agency did not take similar actions against
Dr. Roula Baroudi a non-whistleblower who
photographed patient records after she was charged
with a failure to safeguard confidential information.
Dr. Baroudi photographed patient records and
provided them to her attorney in preparation for trial
in which she alleged retaliation, retaliatory hostile
work environment and discrimination. The Pinellas
County, VA Medical Center, “Bay Pines, CW Bill
Young, Medical Center”, became aware of those
photographs which it viewed it as a potential breach
of the Privacy Policy. A Privacy Investigation was
conducted against Dr. Roula Baroudi in which she
was alleged of violating three of the medical center
policies. After consulting with Human Resources,
Management officials decided to provide Dr. Baroudi
with a fourteen-day suspension as penalty, but
Director Suzanne Klinker reduced the fourteen-day
suspension to a “seven-day suspension with pay”.
This “paper suspension” as the medical center calls
it, was not really a suspension as the term is
generally understood; Baroudi was not only paid
24

during the suspension, she continued to work during
it (Appxl83-187).
Our reviewing court has held that, under Carr,
the requirement that comparator employees be
“similarly situated” does not require “virtual
identity” and that “[d] differences in kinds and
degrees of conduct between otherwise similarly
situated persons within an agency can and should be
accounted for ” See Whitmore, 680 F.3d at 1373.
This is particularly true where, as here, there is only
a single person in the record for which a comparison
can be made. Dr. Baroudi is a non-whistleblower who
photographed patient records and I am a
whistleblower who made a disclosure regarding how
patient information is safeguarded and we are
similarly situated because we both were investigated
for privacy violations after reporting a failure to
safeguard.
Furthermore, the record reflects that the Merit
System Protection Board Administrative Judge
Initial Decision states that neither party presented
meaningful evidence regarding the extent to which
the agency may take similar action against
employees who did not engage in protected activity
but who are otherwise similarly situated. The Merit
System Protection Board Administrative Judge erred
in finding that the third Carr favored the agency
because once a whistleblower shows that their
protected disclosures contributed to adverse actions,
the agency bears the burden of showing that it would
have acted in the same way even absent any
whistleblowing. 5 U.S.C. 1221 (e)(2); Miller, 842 F.
3d at 1257 (burdening the agency to prove

25

independent causation by clear and convincing
evidence). Though an agency need not introduce
evidence of every Carr factor to prove its case, the
“risk associated with having no evidence on the
record” for a particular factor falls on the
government. See Miller, 842 F. 3d 1262.
A. The Questions Presented raises
Important Issues of Constitutional and
Statutory Law
At issue, is whether the whistleblower
protection act places any limits on the authority
of an agency official when an employee makes a
protected disclosure or is an agency official
allowed to disregard every aspect of the
description whistleblower and then engage in
ongoing and repeated reprisal and egregious
harassment by targeting the whistleblower who
is a member in a protected status which is a
prohibited personnel practice solely because a
whistleblower reported a violation of a law,
rule, and or regulation. 5 U.S.C. 2302 (b)(8)-(9).
When the United States Court of
Appeals
dismissed
my
complaint
of
whistleblower reprisal, they effectively ruled
that whistleblower reprisal is invisible under
the Whistleblower protection act of 1989, 5
U.S.C. 2302-, Pub.L. 101-12 as amended. There
is
a
burgeoning
controversy
about
whistleblower reprisal after an employee
makes a disclosure and the practices of how
agency
officials
have
responded
to
whistleblower complaints.

26

June 2018, The United States
Government Accountability Office (GAO)
Report number GAO-18-400, Report to
Congressional Committees, Office Of Special
Counsel, Actions needed to improve processing
of prohibited personnel practices and
whistleblower disclosure complaint. Appxl88191, reports in detail that the position that the
OSC occupies in the defense of merit system
principles in the federal government carries
great weight, but it also presents many
challenges. OSC’s increased caseload has led to
a continuing backlog of unresolved cases, both
in absolute numbers and in terms of their

proportion of total caseload. Alongside this
trend has been an increase in the time OSC
takes to close individual PPP and
whistleblower disclosure cases, with a
particularly
significant
increase
for
whistleblower disclosure cases that OSC refers
to other agencies. OSC’s strategic plan for fiscal
years 2017 to 2022 includes objectives for OSC
to ensure agencies provide timely and
appropriate
outcomes
for
referred
whistleblower disclosures. However, as cases
linger in OSC, there is a greater chance that the
individual making the allegations and officials
in question may have changed positions, moved
jobs, or given up seeking a remedy altogether.
OSC has not undertaken a review of its
practice of approving multiple extensions at the
request of agencies conducting investigations.
These extensions have resulted in longer
processing times, which have not been
transparently
communicated
to
27

whistleblowers. Furthermore, OSC’s lack of a
fully independent internal complaints filing
process has reduced the confidence some Office
of Special Counsel (OSC) employees have in its
process for reviewing PPP and Whistleblower
disclosure
allegations.
Whistleblowers
therefore have limited understanding of OSC’s
review process and cannot adequately plan for
the complete disclosure case process. The
Government Accountability Office (GAO)
provided the office of special counsel with seven
recommendations as follows: The Special
Counsel should review and revise as
appropriate, its policy for agency extension
requests. (Recommendation 1) The Special
Counsel
should communicate
expected
processing timelines to whistleblowers.
(Recommendation 2) The Special Counsel
should develop, document, and implement case
processing procedures for OSC’s Complaints
Examining Unit, including procedures for how
cases are prioritized, how to take favorable
actions, how to balance obtaining favorable
actions with meeting staff productivity
expectations, and how cases should be reviewed
by supervisors. (Recommendation 3) The
Special Counsel should identify and implement
additional controls and tools needed to ensure
closed case files can be tracked and located
efficiently. (Recommendation 4) The Special
Counsel should develop, document, and
implement a standardized training program for
entry-level
employees,
across
units.
(Recommendation 5) The Special Counsel
should finalize a time frame for completing
work with CIGIE and agency Inspectors
28

General to obtain a fully independent review
process for internal OSC allegations.
(Recommendation 6) The Special Counsel
should increase and clarify ongoing outreach to
OSC employees regarding OSC’s process for
handling internal PPP claims or whistleblower
disclosure allegations. (Recommendation 7).
Furthermore, The Office of Inspector
General
Investigated the
Office
of
Accountability and Whistleblower Protection
regarding Failures Implementing Aspects of
the VA Accountability and Whistleblower
Protection Act of 2017, Report number 1804968-249, Appxl92-202, and the Office Of
Inspector General found that the OAWP
misinterpreted
its
statutory
mandate,
Resulting
in failures to act within its
investigative authority, The OAWP Did Not
Consistently Conduct Procedurally Sound,
Accurate,
Thorough,and
Unbiased
Investigations and Related Activities Written
policies and procedures are crucial to effective
operations. During the tenures of Executive
Directors O’Rourke and Nicholas, the OAWP
did not adopt comprehensive written policies
and procedures on any topic.
As of July 2019, it still lacked OAWPspecific written policies and procedures. The
office also did not have a quality assurance
process for identifying and preventing errors in
its work. VA Has Struggled with Implementing
the Act’s Enhanced Authority to Hold Covered
Executives Accountable A critical purpose of
the Act was to facilitate holding Covered
29

Executives accountable for misconduct and
poor performance. However, as of May 22, 2019,
VA had removed only one Covered Executive
from federal service pursuant to the authority
provided by the Act. The OIG found that
officials tasked with proposing and deciding
disciplinary action had insufficient direction for
how to determine the appropriate level of
discipline that would ensure consistency and
fairness for specific acts of misconduct and poor
performance.
In many cases, a disciplinary official
mitigated the discipline recommended by

OAWP as too severe or based on advice from the
VA’s Office of General Counsel. The Office of
Inspector General provided the OAWP with
twenty-two recommendations: 1.The Assistant
Secretary for Accountability and Whistleblower
Protection directs a review of the Office of
Accountability and Whistleblower Protection’s
compliance with the VA Accountability and
Whistleblower Protection Act of 2017
requirements in order to ensure proper
implementation and eliminate any activities
not within its authorized scope. 2. The VA
Secretary rescinds the February 2018
Delegation of Authority and consults with the
Assistant Secretary for Accountability and
Whistleblower Protection, the VA Office of
General Counsel, and other appropriate parties
to determine whether a revised delegation is
necessary, and if so, ensures compliance with
statutory requirements.

30

3. The Assistant Secretary for
Accountability and Whistleblower Protection,
in consultation with the Office of General
Counsel, Office of Inspector General, Office of
the Medical Inspector, and the Office of
Resolution
Management
establishes
comprehensive processes for evaluating and
documenting whether allegations, in whole or
in part, should be handled within the Office of
Accountability and Whistleblower Protection or
referred to other VA entities for potential action
or referred to independent offices such as the
Office of Inspector General. 4. The Assistant
Secretary for Accountability and Whistleblower
Protection makes certain that policies and
processes are developed, in consultation with
the VA Office of General Counsel and Office of
Resolution Management, to consistently and
promptly advise complainants of their right to
bring allegations of discrimination through the
Equal Employment Opportunity process.
5. The Assistant Secretary for
Accountability and Whistleblower Protection
ensures that the divisions of the Office of
Accountability and Whistleblower Protection
adopt standard ^ operating procedures and
related detailed guidance to make certain they
are fair, unbiased, thorough, and objective in
their work. 6. The VA General Counsel updates
VA Directive 0700 and VA Handbook 0700 with
-revisions clarifying the extent to which VA
Directive 0700 and VA Handbook 0700 apply to
the Office of Accountability and Whistleblower
Protection, if at all.7. The Assistant Secretary
for
Accountability
and
Whistleblower
31

Protection assigns a quality assurance function
to an entity positioned to review Office of
Accountability and Whistleblower Protection
divisions’ work for accuracy, thoroughness,
timeliness, fairness, and other improvement
metrics. 8. The Assistant Secretary for
Accountability and Whistleblower Protection
directs the establishment of a training program
for all relevant personnel on appropriate
investigative techniques, case management,
and disciplinary actions. 9.The VA Secretary, in
consultation with the VA Office of General
Counsel, provides comprehensive guidance and
training reasonably designed to instill
consistency in penalties for actions taken
pursuant to 38 U.S.C. §§713 and 714.
lO.The VA Secretary ensures the
provision of comprehensive guidance and
training to relevant disciplinary officials to
maintain compliance with the mandatory
adverse action criteria outlined in 38 U.S.C. §
731. 11. The Assistant Secretary for
Accountability and Whistleblower Protection
makes certain that in any disciplinary action
recommended by the Office of Accountability
and Whistleblower Protection, all relevant
evidence is provided to the VA Secretary (or the
disciplinary officials designated to act on the
Secretary’s behalf). 12. The Assistant Secretary
for
Accountability
and
Whistleblower
Protection implements safeguards consistent
with statutory mandates to maintain the
confidentiality of employees that make
submissions,
including
guidelines
for
communications with other VA components. 13
32

The Assistant Secretary for Accountability and
Whistleblower Protection leverages available
resources, such as VA’s National Center for
Organizational Development and the Office of
Resolution Management, to conduct an
organizational assessment of Office of
Accountability and Whistleblower Protection
employee concerns and develop an appropriate
action plan to strengthen Office of
Accountability and Whistleblower Protection
workforce engagement and satisfaction.
14.The Assistant Secretary for Accountability
and Whistleblower Protection develops a
process and training for the Triage Division
staff to identify and address potential
retaliatory investigations.
15. The Assistant Secretary for
Accountability and Whistleblower Protection
collaborates with the Assistant Secretary for
Human Resources and Administration, and the
VA Secretary to develop performance plan
requirements as required by 38 U.S.C. § 732.
16. The Assistant Secretary for Accountability
and Whistleblower Protection ensures the
implementation of whistleblower disclosure
training to all VA employees as required under
38 U.S.C. § 733. 17. The VA Secretary makes
certain supervisors’ training is implemented as
required under § 209 of the VA Accountability
and Whistleblower Protection Act of 2017. 18.
The Assistant Secretary for Accountability and
Whistleblower Protection confers with the VA
Office of General Counsel to develop processes
for collecting and tracking justification
information related to proposed disciplinary
33

action modifications consistent with 38 U.S.C.
§ 323(f)(2).
19. The VA Secretary in consultation with the
Office of General Counsel and the Assistant
Secretary for Accountability and Whistleblower
Protection ensures compliance with the 60-day
reporting requirement in 38 U.S.C. § 323(f)(2)
consistent with congressional intent.
20. The Assistant Secretary for Accountability
and Whistleblower Protection develops or
enhances database systems to provide the
capability to track all data required by the VA
Accountability and Whistleblower Protection
Act of 2017. 21. In consultation with the VA
Office of General Counsel, the Assistant
Secretary for Accountability and Whistleblower
Protection completes the publication of Systems
of Records Notices for all systems of records
maintained by the Office of Accountability and
Whistleblower
Protection,
and
adopts
procedures reasonably designed to ensure that
the Office of Accountability and Whistleblower
Protection does not create additional systems of
records
without
complying with
the
requirements of the Privacy Act of 1974. 22.The
Assistant Secretary for Accountability and
Whistleblower Protection consults with the VA
Chief Freedom of Information Act Officer to
ensure adequate training and staffing of the
Office of Accountability and Whistleblower
Protection’s Freedom of Information Act Office
and establishes procedures to comply with
FOIA requirements including timeliness.

34

Conclusion
For the foregoing reason, Ms. Tonya Knowles,
respectfully request that this Court issue a writ of
Certiorari to review the judgment of the US Court of
Appeals.

Tonya Knowles
1201 Seminole Blvd
Apt 474
Largo, FI 33770
ProSe

35

